TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Taxpayer Data Used at Contractor Facilities
                      May Be at Risk for Unauthorized
                           Access or Disclosure



                                           May 18, 2010

                              Reference Number: 2010-20-051




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


TAXPAYER DATA USED AT                                process for identifying the contractors
CONTRACTOR FACILITIES MAY BE AT                      receiving IRS taxpayer data, the IRS cannot
RISK FOR UNAUTHORIZED ACCESS OR                      ensure that all contractors who receive such
DISCLOSURE                                           data are being reviewed for compliance with
                                                     security requirements. As a result, the IRS
                                                     cannot ensure that taxpayer data are
Highlights                                           protected at contractor facilities.
                                                     TIGTA also found that security weaknesses
Final Report issued on May 18, 2010                  identified by the ISR office team at
                                                     contractor facilities were not timely
Highlights of Reference Number: 2010-20-051          corrected. Our review of eight contractors
to the Internal Revenue Service Chief                visited by the ISR office during Fiscal
Technology Officer and Chief, Agency-Wide            Year 2009 found that the ISR office identified
Shared Services.                                     security weaknesses at all eight contractor
                                                     facilities. However, the IRS was unable to
IMPACT ON TAXPAYERS                                  provide monitoring documents for seven of
The Internal Revenue Service (IRS) provides its      the eight contractors. These weaknesses
taxpayer data to contractors who store and           included access control, configuration
process the data at their own facilities in          management control, and system integrity
support of the IRS’ mission of tax                   control issues. Without adequate oversight
administration. The IRS did not have effective       to monitor and confirm that security
processes to identify all contractors with IRS       weaknesses are corrected at contractor
taxpayer data that require annual security           facilities, security weaknesses will persist
reviews by the IRS and did not ensure                and taxpayer data will remain at risk of
computer security weaknesses identified at           unauthorized access and disclosure.
contractor facilities during security reviews have   WHAT TIGTA RECOMMENDED
been corrected. As a result, taxpayer data may
be at risk for unauthorized access or disclosure.    TIGTA recommended that the IRS identify the
                                                     information system that can serve as the primary
WHY TIGTA DID THE AUDIT                              source for identifying contractors requiring
This audit was initiated as part of our statutory    reviews. The IRS should also ensure that
requirements to annually review the adequacy         appropriate indicators are captured on each
and security of IRS information technology. The      existing contract with a disclosure and privacy
overall objective of this review was to determine    impact, validate whether the IRS business
whether the IRS had effective controls in place      organization provided any IRS taxpayer data to
to ensure IRS taxpayer data are protected at         these contractors, and provide the appropriate
contractor facilities.                               notification and guidance to the responsible IRS
                                                     business organizations to execute annual
WHAT TIGTA FOUND                                     security reviews of contractors when required.
                                                     In addition, the IRS should validate correction of
Current processes were not effective at              reported security weaknesses and recommend a
identifying all contractors who receive IRS          process for reporting weaknesses that remain
taxpayer data and are subject to required            unmitigated to increase the accountability of the
security reviews. The Infrastructure Security        responsible parties for remediation of security
and Reviews (ISR) office identified                  weaknesses.
contractors that require reviews by asking
IRS business organizations to identify their         In their response to the report, IRS management
contractors that process, store, or house IRS        agreed with our recommendations and plans to
taxpayer data. However, this process did             take appropriate corrective actions.
not identify all contractors who have been
provided such data. Without an effective
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 18, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Taxpayer Data Used at Contractor Facilities May
                             Be at Risk for Unauthorized Access or Disclosure (Audit # 200920005)

 This report presents the results of our review of determine whether the Internal Revenue Service
 (IRS) had effective controls in place to ensure IRS taxpayer data are protected at contractor
 facilities. This audit was included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of Security
 at the IRS and was part of our statutory requirement to annually review the adequacy and
 security of IRS information technology.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.
                                  Taxpayer Data Used at Contractor Facilities
                              May Be at Risk for Unauthorized Access or Disclosure




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Internal Revenue Service Did Not Have an Effective Process
          for Identifying All Contractors Who Have Been Provided
          Taxpayer Data and Require Computer Security Reviews ............................Page 2
                    Recommendation 1:..........................................................Page 3

                    Recommendation 2:..........................................................Page 4

          The Internal Revenue Service Did Not Ensure Computer
          Security Weaknesses Identified at Contractor Facilities
          Are Timely Corrected ...................................................................................Page 4
                    Recommendations 3 and 4: ................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Listing of Contractors Selected for Review.........................Page 11
          Appendix V – Management’s Response to the Draft Report .......................Page 12
            Taxpayer Data Used at Contractor Facilities
        May Be at Risk for Unauthorized Access or Disclosure




                   Abbreviations

FISMA        Federal Information Security Management Act
IRS          Internal Revenue Service
ISR          Infrastructure Security and Reviews
NIST         National Institute of Standards and Technology
POA&M        Plan of Action and Milestones
                                Taxpayer Data Used at Contractor Facilities
                            May Be at Risk for Unauthorized Access or Disclosure




                                              Background

In its Fiscal Year 2001 summary report to Congress, the Office of Management and Budget
identified the security of contractor-provided services as a Government-wide challenge to
information technology security. When the Federal Information Security Management Act
(FISMA) 1 was enacted a year later, provisions and guidelines were promulgated to ensure the
effectiveness of information security controls supporting Federal operations and assets by
contractors.
The Internal Revenue Service (IRS) uses contractors to help achieve its mission to administer the
nation’s Federal tax system. Many of these contractors are provided IRS taxpayer data for use at
contractor facilities outside of IRS offices. Others contractors operate information systems at
contractor facilities on behalf of the IRS that provide access to the IRS network. Like
IRS-managed computer systems, contractors must comply with security control requirements
issued by the National Institute of Standards and Technology (NIST) for protecting IRS data.
The IRS is ultimately responsible for ensuring security controls at contractor facilities are in
place and operating effectively.
Specifically within the IRS, the Infrastructure Security and Reviews (ISR) office of the
Modernization and Information Technology Services organization Cybersecurity function is
responsible for reviewing controls of contractors who receive IRS taxpayer data for use or
operate information systems on behalf of the IRS at contractor facilities to ensure security
requirements have been implemented. The ISR office schedules and conducts reviews of these
contractors on an annual basis, using the methodology defined in NIST Special Publication
800-53, Recommended Security Controls for Federal Information Systems and NIST Special
Publication 800-53A, Guide for Assessing Controls in Federal Information Systems.
This review was performed at the Modernization and Information Technology Services
organization Headquarters in New Carrollton, Maryland, and at one contractor facility in
Sterling, Virginia, during the period June 2009 through January 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.



1
    E-Government Act of 2002, Pub. L. No. 107-347, Title III, 116 Stat. 2946.
                                                                                            Page 1
                                 Taxpayer Data Used at Contractor Facilities
                             May Be at Risk for Unauthorized Access or Disclosure




                                         Results of Review

During Fiscal Years 2008 and 2009, the ISR office visited 12 and 57 contractors, respectively, to
evaluate the security of IRS taxpayer information at the contractor facilities. Based on our
review of eight contractors 2 visited by the ISR office during Fiscal Year 2009, we found that the
ISR office conducted effective contractor reviews in accordance with NIST Special Publication
800-53, Recommended Security Controls for Federal Information Systems, for specifying
required security controls and NIST Special Publication 800-53A, Guide for Assessing the
Security Controls for Federal Information Systems, for assessing the security controls’
effectiveness. For the 12 contractors reviewed during Fiscal Year 2008, the ISR office identified
133 security weaknesses and for the 57 contractors reviewed during Fiscal Year 2009, the ISR
office identified 268 security weaknesses in the same major control areas. These 401 security
weaknesses related to all 17 NIST Special Publication 800-53 control families, including
contingency planning (39 weaknesses), configuration management (37 weaknesses), risk
assessments (32 weaknesses), and access controls (31 weaknesses).
However, the IRS did not have effective processes to identify all contractors with IRS taxpayer
data that require annual security reviews by the IRS and did not ensure computer security
weaknesses identified at contractor facilities during security reviews are timely corrected. In
order to ensure IRS data are secured at all contractor facilities, the IRS needs to improve its
current processes and controls to identify all contractors who process, manage, or store IRS
taxpayer data at contractor facilities and to ensure timely corrective actions are taken on
computer security weaknesses identified at contractor facilities.

The Internal Revenue Service Did Not Have an Effective Process for
Identifying All Contractors Who Have Been Provided Taxpayer Data
and Require Computer Security Reviews
The ISR office is required to conduct annual security reviews of contractors who possess or have
direct access to IRS information or operate information systems on behalf of the IRS at
contractor facilities to ensure security requirements have been implemented. The purpose of
these security reviews is to ensure contractors are complying with IRS security policies and
procedures, and protecting taxpayer information provided to them. To identify contractors who
require these onsite security visits, the ISR office submits an enterprise-wide data call request
asking all IRS business organizations to identify their contractors that possess or have access to
IRS taxpayer data at contractor facilities. Based on the data call results, the ISR office prepares


2
    See Appendix IV for a listing of the eight contractors we reviewed.
                                                                                            Page 2
                               Taxpayer Data Used at Contractor Facilities
                           May Be at Risk for Unauthorized Access or Disclosure



an inventory of contractors and schedules reviews based on a set of priorities, including filing
season readiness, risk exposure, and the specific type of tax data processed by the contractor.
This process was not effective at identifying all contractors who have been provided IRS
taxpayer data. During our audit fieldwork, we identified one contractor who was not on the
contractor inventory list used by the ISR office for tracking their inventory of contractors
requiring review but should have been included. In addition, the ISR office had identified a
contractor who received IRS data but was previously identified as not receiving IRS taxpayer
data by an IRS business organization. In Fiscal Year 2009, the ISR office subsequently reviewed
both of these contractors.
These two examples highlight the need for improvement in identifying contractors who receive
taxpayer data from the IRS. The contractors who were visited and reviewed by the ISR office in
Fiscal Years 2008 and 2009 were identified by IRS business organizations responding to the data
call. In Fiscal Year 2009, the ISR office also obtained a list of 1,396 procurement requests from
an IRS procurement information system used to manage the IRS procurement process. All of
these procurement requests contained disclosure and privacy indicators, which informed the IRS
contracting office that the contractor would use IRS data at the contractor’s facility. 3 However,
due to the workload involved, neither the ISR office nor the IRS Procurement organization
reviewed these procurement requests to determine whether contractors were, in fact, provided
IRS taxpayer data and, therefore, required an annual security review.
While not all of these 1,396 procurement requests may include contractors who process, manage,
or store IRS taxpayer data at contractor facilities, we believe the contract data contained in the
procurement information system may provide the most definitive, reliable, and complete source
for identifying such contractors. However, improvements are needed to the procurement
information system in order for the system to readily determine which contractors meet the ISR
office criteria for requiring a contractor review. Without an effective process for identifying
these contractors, the IRS cannot ensure that all contractors who have been provided IRS
taxpayer data are being reviewed for computer security control weaknesses. As a result, the IRS
cannot ensure that taxpayer data are protected at all contractor facilities.

Recommendations
Recommendation 1: The Chief, Agency-Wide Shared Services, and the Chief Technology
Officer should identify the information system that can serve as the primary source for
identifying contractors requiring ISR office security reviews and develop specific indicators


3
  The disclosure and privacy indicator field on the procurement information system corresponds to the question,
“Does your requirement involve Sensitive But Unclassified information where Information Technology services are
performed at the contractor’s site or with the use of the contractor’s electronic devices (e.g., laptops, blackberries,
text messaging cellular equipment, thumb drives, CDs, etc.)?” If answered yes, disclosure and privacy clauses are
included in the contract.
                                                                                                               Page 3
                              Taxpayer Data Used at Contractor Facilities
                          May Be at Risk for Unauthorized Access or Disclosure



within the information system that effectively identify any contractor receiving and using IRS
taxpayer data at the contractor’s facility.
         Management’s Response: IRS management agreed with this recommendation. The
         Chief, Agency-Wide Shared Services, will modify the Personal Identity Verification
         Background Investigation Process system to identify candidate contracts and contractors
         who have access to sensitive information. The ISR office will use reports from this
         system and related information to identify contractor facilities for review.
Recommendation 2: The Director, Procurement, and the Director, Office of Privacy and
Information Protection, should ensure the appropriate indicator is captured on each existing
contract with a disclosure and privacy impact, validate whether the business organization
provided any IRS taxpayer data to these contractors, and provide the appropriate notification and
guidance to the responsible IRS business organizations to execute annual security reviews of
these contractors when required.
         Management’s Response: IRS management agreed with this recommendation. The
         Director, Procurement, and the Director, Physical Security and Emergency Preparedness,
         will track the appropriate indicators and provide the ISR office with contract and
         contractor information for use in selecting contractor sites for security reviews.

The Internal Revenue Service Did Not Ensure Computer Security
Weaknesses Identified at Contractor Facilities Are Timely Corrected
Office of Management and Budget memorandum M-08-21, entitled “Fiscal Year 2008 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management,” states that FISMA requirements follow agency information into any system
which uses it or processes it on behalf of the agency. When the ultimate responsibility and
accountability for control of the information continues to reside with the agency, FISMA
requirements apply. To the extent that contractors process, store, or house Federal Government
information or operate information systems on behalf of the IRS at contractor facilities, the
contractor’s security controls must be assessed against the same NIST criteria and standards as
any Government agency. Further, the agency is responsible for ensuring the contractor corrects
weaknesses discovered through self-assessments and independent assessments. Any weaknesses
are to be reflected in the agency’s Plan of Action and Milestones (POA&M). 4
IRS policy requires business and system owners to ensure that all acquisitions of goods or
services provide for information security, personnel security, and physical security, which
includes the security of any IRS data at contractor facilities. Further, IRS policy requires the


4
 A POA&M document, also referred to as a corrective action plan, is a tool that assists agencies in identifying,
assessing, prioritizing, and monitoring the progress of corrective efforts for security weaknesses found in programs
and systems.
                                                                                                             Page 4
                              Taxpayer Data Used at Contractor Facilities
                          May Be at Risk for Unauthorized Access or Disclosure



Contracting Officer’s Technical Representative to ensure that contractors comply with IRS
security policies and pursue appropriate action for noncompliance. As a means to determine
whether contractors are complying with IRS security policies, the ISR office is responsible for
evaluating the security of IRS taxpayer data at contractor facilities.
After the ISR office completes a contractor security review, the ISR office presents the results to
the Contracting Officer’s Technical Representative in a Security Assessment Report, which
includes the details of the security weaknesses identified at the contractor’s facilities. The ISR
office instructs the Contracting Officer’s Technical Representative to coordinate with the
Designated Approving Authority or the Security Program Management Office to identify
corrective actions and planned implementation dates for resolving the weaknesses. The ISR
office further instructs the Security Program Management Office to provide oversight, in
coordination with the Contracting Officer’s Technical Representative, to ensure remediation of
each weakness identified, including developing and maintaining a corresponding item on the
POA&M.
However, the IRS was not consistently developing the POA&Ms for security weaknesses
identified by the ISR office. In our judgmental sample of eight contractors visited by the ISR
office during Fiscal Year 2009, all eight contractors’ facilities had security weaknesses identified
by the ISR office. We requested copies of the POA&Ms for tracking these security weaknesses.
The IRS was unable to provide the POA&Ms developed as a result of the ISR office reviews for
seven of the eight contractors. During the course of our audit, the POA&Ms were developed for
four of the seven contractors in our sample that were not provided when we requested them.
When asked why the POA&Ms were not completed for the seven contractors, the IRS stated it
did not create and monitor ISR office findings in the POA&Ms for systems that it did not
consider as FISMA reportable systems 5 or did not believe the contractors were subject to FISMA
requirements. We disagree with this reasoning. However, while there might be confusion over
what is or is not FISMA reportable, we believe the approach for tracking and monitoring security
weaknesses should apply regardless of whether or not FISMA applies to the contractor since the
weaknesses pertain to the protection of IRS taxpayer data. When security weaknesses are not
tracked and monitored, the IRS has no assurance that an official within the IRS is taking
responsibility for monitoring the security weaknesses reported by the ISR office and ensuring
security weaknesses are timely addressed.
To illustrate the importance of monitoring security weaknesses at contractors’ facilities, the ISR
office identified 6 repeat security weaknesses at contractor facilities during its Fiscal Year 2008
reviews and 24 repeat security weaknesses during its Fiscal Year 2009 reviews that were not
corrected since the prior fiscal years’ ISR office reviews. These security weaknesses included



5
 Systems subject to FISMA contractor reviews include contractors with privileged access to IRS data and/or
contractors that manage a process or system at a contractor-owned or operated facility on behalf of the IRS.
                                                                                                           Page 5
                          Taxpayer Data Used at Contractor Facilities
                      May Be at Risk for Unauthorized Access or Disclosure



access control, configuration management control, and system integrity control issues. For
example, the ISR office found that some contractors:
    •   Had system security settings not set to the most restrictive mode.
    •   Lacked policies on how to handle sensitive information.
    •   Had systems that were less than 90 percent compliant with IRS security policies based
        on automated scans of system settings.
The eight contracts that we reviewed generally required the contractors to adhere to IRS security
policies and procedures. Without adequate oversight to monitor and confirm that security
weaknesses are corrected at contractor facilities, security weaknesses will persist and IRS data
will remain at risk for unauthorized access and disclosure.

Recommendations
Recommendation 3: The Associate Chief Information Officer, Cybersecurity, should
validate correction of ISR office reported security weaknesses and recommend a process for
reporting weaknesses that remain unmitigated to increase the accountability of the responsible
parties for remediation of security weaknesses.
        Management’s Response: IRS management agreed with this recommendation. The
        ISR office will establish a plan for requesting status updates on the POA&Ms from the
        responsible parties, validate corrected security weaknesses, and inform the responsible
        parties of uncorrected weaknesses quarterly.
Recommendation 4: The Director, Procurement, and the Associate Chief Information
Officer, Cybersecurity, should work together to ensure contractor accountability that security
weaknesses are addressed in a timely manner. Using validation results from Recommendation 3,
the Procurement organization, working with the Cybersecurity organization, will take
appropriate action and employ all rights and remedies available to the Government if and when
contractors do not comply with IRS security policies.
        Management’s Response: IRS management agreed with this recommendation.
        Based on validation results from the ISR office, the Director, Procurement, and the
        Associate Chief Information Officer, Cybersecurity, will determine the appropriate action
        and employ all rights and remedies available to the Government if and when contractors
        do not comply with IRS security policies.




                                                                                           Page 6
                          Taxpayer Data Used at Contractor Facilities
                      May Be at Risk for Unauthorized Access or Disclosure



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS had effective controls in
place to ensure IRS taxpayer data are protected at contractor facilities. In order to accomplish
our objective, we:
I.     Determined whether IRS contractor reviews were adequate to validate contractor
       compliance with IRS security policies.
       A. Selected a judgmental sample of 8 contractors that process, manage, or store Federal
          taxpayer information or operate information systems on behalf of the IRS at non-IRS
          locations from an IRS list of 57 contractors that required an annual security review
          during Fiscal Year 2009. This list was the result of the data call that the IRS makes to
          its business organizations annually to identify contractors to schedule for a security
          review. We selected a judgmental sample because we did not plan to project the
          results.
       B. Obtained and reviewed contracts for the selected contractors and determined whether
          each was adequate to hold contractors accountable for implementing IRS security
          policies.
       C. Obtained and reviewed contractor review plans and results prepared by the IRS for
          the selected contractors and evaluated them for adequacy.
       D. Determined whether any weaknesses identified were being tracked in a POA&M and
          whether progress was being made to correct the deficiencies.
II.    Determined whether key information system controls were in place and operating
       effectively to limit access to only authorized users at one contractor facility at a non-IRS
       location. We reviewed the following types of controls:
       A. Access.
       B. Identification and Authentication.
       C. Audit and Accountability.
       D. Risk Assessment.
       E. System and Information Integrity.




                                                                                             Page 7
                          Taxpayer Data Used at Contractor Facilities
                      May Be at Risk for Unauthorized Access or Disclosure



III.   Evaluated the process for identifying contractors provided IRS taxpayer data for use at
       offsite locations.
       A. Reviewed the data call method used by the IRS to identify contractors requiring an
          annual security review.
       B. Reviewed procurement request data from an IRS procurement system and determined
          whether the IRS procurement system could be used to automate identification of
          contractors requiring an annual security review. To assess the reliability of the
          procurement request data, we interviewed knowledgeable agency officials about the
          data and reviewed relevant documentation. We determined that the data were
          sufficiently reliable for the purposes of this report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’ policies, procedures, and
practices for ensuring IRS data are secured at offsite contractor locations. We evaluated these
controls by reviewing contracts, security control testing results, and related documentation and
consulting with IRS and contractor personnel.




                                                                                           Page 8
                         Taxpayer Data Used at Contractor Facilities
                     May Be at Risk for Unauthorized Access or Disclosure



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Bret Hunter, Lead Auditor
Richard Borst, Senior Auditor
Michelle Griffin, Senior Auditor




                                                                                      Page 9
                         Taxpayer Data Used at Contractor Facilities
                     May Be at Risk for Unauthorized Access or Disclosure



                                                                    Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Privacy, Information Protection, and Data Security OS:P
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Director, Privacy and Information Protection OS:P:PIP
Director, Procurement OS:A:P
Director, Cybersecurity Program and Policies OS:CTO:C:PP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO
       Chief, Agency-Wide Shared Services OS:A




                                                                          Page 10
                             Taxpayer Data Used at Contractor Facilities
                         May Be at Risk for Unauthorized Access or Disclosure



                                                                                         Appendix IV

           Listing of Contractors Selected for Review

From an IRS list of contractors that required contractor reviews, we selected a judgmental
sample of eight contractors who process, manage, or store Federal taxpayer information or
operate information systems on behalf of the IRS at non-IRS locations. We reviewed the
contracts, the methods of security control testing, the Security Assessment Reports provided by
the IRS Infrastructure Security and Reviews team, and the processes to resolve weaknesses.

         Contractor              Description of System                Location             Business
                                                                                          Organization
1   Northrop Grumman         Service Center Recognition Image     Reston, Virginia      Wage and Investment
    Information Technology   Processing System
2   Accenture/Affina/Qwest   Health Coverage Tax Credit           Iowa, Virginia, and   Wage and Investment
                             Program                              Texas
3   AT&T                     Enterprise Remote Access Project     Oakton, Virginia      Modernization and
                                                                                        Information
                                                                                        Technology Services

4   Accenture                IRS.gov Public User Portal           Reston, Virginia      Modernization and
                                                                                        Information
                                                                                        Technology Services
5   IBM/Quest                Registered User Portal               Sterling, Virginia,   Modernization and
                                                                  and Chicago,          Information
                                                                  Illinois              Technology Services


6   Computer Sciences        Development, Integration, and        Lanham, Maryland      Modernization and
    Corporation              Testing Environment                                        Information
                                                                                        Technology Services
7   CRA International        The contractor is supplied with      Chicago, Illinois     Small Business/
                             Sensitive But Unclassified data in                         Self-Employed
                             order to perform appraisal or
                             actuarial work – valuation of
                             minority stock interests.
8   Pacific Consulting       Data and market research             Palo Alto,            Wage and Investment
    Group                                                         California




                                                                                                   Page 11
           Taxpayer Data Used at Contractor Facilities
       May Be at Risk for Unauthorized Access or Disclosure



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 12
    Taxpayer Data Used at Contractor Facilities
May Be at Risk for Unauthorized Access or Disclosure




                                                   Page 13
    Taxpayer Data Used at Contractor Facilities
May Be at Risk for Unauthorized Access or Disclosure




                                                   Page 14
    Taxpayer Data Used at Contractor Facilities
May Be at Risk for Unauthorized Access or Disclosure




                                                   Page 15
